Supreme Court
of the United States
Affidavit of Service by Mail
X

Proof of Service

<

l

Gerald Aranoff,
Petitioner
■againstDocket # 20-6525
Docket #’s 18-7160, 18-9390

Susan Aranoff,

NYS Court of Appeals

Respondent

NYS Appellate Div. 2nd Judicial Dept.
X

NYS Kings County Supreme Court

State of Israel
Tel-Aviv

SS:

Gerald Aranoff, being duly sworn, deposes and says:

;

I sent by UPS-express true copy of a Petition for Rehearing for No. 20—6525 dated
March 14, 2021 to: US Supreme Court, 1 First Street, NE, Washington, DC 20543-0001
USA. attention Scott S. Harris, Clerk of the Court 202-479-3039, to:

1
I
;

Susan Aranoff
498 East 18 Street, Brooklyn, NY 11226 USA
phones: 718-284-2093 917-671-7274
email: susanaranoff@gmail.com:

V___ '

Gerald Aranoff
8 Miriam Haneviah Street
Bnei Brak 51583 Israel
Phone 972-523-602370
Email: garanoff@netvision.net.il
Date: March 14, 2021

MAR 1 8 2021

i

onrj; oovvvv oiuu M-K
SHP WT: 0.5 KG
DATE: 14 MAR 2021

UKi INU. 1044/;}

■ 372-52-3602370
- ARANOFF GERALD DR
8 MIRYAM HA-NEVI'A ST.
BNEI BRAK 5158324
ISRAEL

Sglg

IN T

:

I l£ 3-UO

M§<££

t

UPS EXPRESS

SHIP TO:
SUSAN ARANOFF
(718) 284-2093
SUSAN ARANOFF
498 EAST 18 ST.

1

TRACKING #: 1Z 56W W51 66 4226 5787

BROOKLYN NY 11226
UNITED STATES

BILLING: P/P
DESC: DOCUMENTS

EDI-DOC

Snipper agrees to the UPS Terms found at www.ups.com end UPS service centers. For International air carriage ihe
Warsaw Convention as amended or Montreal Convention may apply and limits UPS’s liability for loss or damage to cargi
International carriage by road may be subject to the Convention on the Contract for ihe International Carriage of Goods t
Road. Except as otherwise governed by international conveniions or other mandatory law, the UPS Terms limit UPS's
liability for damage, loss or delay of this shipment. There are no stopping places agreed upon at the time of tender ol Ihe
shipment end UPS reserves the right to route the shipment in any way it deems appropriate. Where allowed by law shipr
hi cc
authorizes UPS to act as forwarding agent for export control and customs purposes. If exported from the US, shipper •
certifies that the commodities, technology or software were exported from the US in accordance with the Export
Administration Regulations. Diversion contrary to law is prohibited.
WS 21.0.23 Canon iRH33 34.0A 10/21

i

Fold here and place in label pouch

uni Ii
llllili 3

TR#:1Z 56W W51 66 4226 5787

s
?

%

P»!
7

SHIPPER’S SIGNATURE

t

DATE OF SHIPMENT

'K

'I

anrw. oovvvv oir i jt>u
SHP WT: 0.5 KG
DATE: 14 MAR 2021

UPS NO. 164473
972-52-3602370
ARANOFF GERALD DR
8 MIRYAM HA-NEVI’A ST.
BNEI BRAK 5158324
ISRAEL

SHIP TO:
SCOTT HARRIS CLERK OF T
(120) 247-9303 9
US SUPREME COURT
1 FIRST STREET

mu tv i z>mvv

i

ft- ’AVCpw*

mm

9B9BS

UPS EXPRESS

l
t

1

TRACKING #: 1Z56W W51 66 4014 9004

WASHINGTON DC 20543
UNITED STATES
BILLING: P/P
DESC: DOCUMENTS

i

EDI-DOC

Shipper agrees to the UPS Terms found at www.ups.com and UPS service centers. For International air carriage, the
Warsaw Convention as amended or Montreal Convention may apply and limits UPS's liability for loss or damage to cargo
International carriage by road may be subject to (he Convention on the Contract for the International Carriage of Goods 8
Road. Except as otherwise governed by international conventions or other mandatory law, the UPS Terms limit UPS's
liability for damage, loss or delay of this shipment. There are no stopping places agreed upon at the time of lender of the
shipment and UPS reserves the right to route the shipment in any way It deems appropriate; Where allowed by law, shipp
authorizes.UPS to act as forwarding agent for export control and customs purposes. If exported from the US, shipper
certifies that the commodities, technology or software were exported from the US In accordance with the Export
Administration Regulations. Oiversion contrary to law Is prohibited.
WS 21.0.23 Canon IR1133 34.0A 10/20

j

j
*

Fold here and place in label pouch

TR#:1Z 56W W51 66 4014 9004

will
r

ii

1

*

s'

,vi

a

%
SB

KKIej

SHIPPER'S SIGNATURE

DATE OF SHIPMENT

l

1

;

